IN THE SUPREME COURT OF THE UNITED STATES
_____________________________
_____________________________
TONY BROWN,
PETITIONER,
- vs UNITED STATES OF AMERICA,
RESPONDENT.
____________________________
____________________________
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
____________________________
____________________________

JOHN C. LEMON
1350 Columbia St. Suite 600
San Diego, California 92101
Telephone No. (619) 794-0423
Attorney for Petitioner

Questions Presented for Review
1.

In United States v. Lovasco, this Court delegated to the lower courts

the responsibility to “apply[] the settled principles of due process” to preindictment
delay. Here, Petitioner was prosecuted in federal court for offenses that had been
adjudicated by state courts 13 years earlier and after exculpatory witness
statements had been destroyed. The Ninth Circuit nonetheless held that the delay
did not violate due process. Should this Court address the Ninth Circuit’s
interpretation of Lovasco?

2.

In United States v. Richardson, the Third Circuit held that an amended

statute of limitations does not apply retroactively in the absence of express
congressional intent that it should. Although Richardson has never been overruled,
its viability after this Court’s decision in Landgraf v. Usi Film Prods. has been
questioned. Should this Court grant the writ to decide whether a statute of
limitations should be applied retroactively in the absence of congressional intent?

- prefix -

IN THE SUPREME COURT OF THE UNITED STATES
4444444444444444444444444U

TONY BROWN,
Petitioner,
-vUNITED STATES OF AMERICA,
Respondent.
4444444444444444444444444U

PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
4444444444444444444444444U

Petitioner, Tony Brown, respectfully prays that a writ of certiorari issue to
review the judgment of the United States Court of Appeals for the Ninth Circuit.

Opinion Below
The Ninth Circuit, in an unpublished memorandum, affirmed Petitioner’s
convictions and sentences for RICO conspiracy, transportation of a minor to
engage in criminal activity, and sex trafficking of minors.1

1

A copy of the memorandum is attached as Appendix A.

Jurisdiction
On January 15, 2020, the Ninth Circuit affirmed Petitioner’s convictions and
sentence. On April 7, 2020, the Ninth Circuit denied his petition for rehearing en
banc. This Court has jurisdiction under 28 U.S.C. § 1254(1).

Constitutional & Statutory Provisions
Fifth Amendment to the United States Constitution:
No person shall be . . . deprived of life, liberty, or property, without due
process of law . . . . .
18 U.S.C. § 3283 (1997):

No statute of limitations that would otherwise preclude prosecution
for an offense involving the sexual or physical abuse of a child under
the age of 18 years shall preclude such prosecution before the child
reaches the age of 25 years.
Statement of the Case
Petitioner, Tony Brown, is an aspiring rap-music producer and one-time
resident of the San Diego, CA community called North Park. In the late 1990s, he
became a member of Skanless, which is a “dance clique” loosely affiliated with
another North Park group called Black Mob.

3

On August 13, 2000, at the age of 18, Petitioner was arrested in Las Vegas
for pimping. He pleaded guilty and served 81 days in custody. On March 31, 2001,
he was arrested in Los Angeles for pimping. Citing a “lack of sufficient evidence,”
the Los Angeles District Attorney declined to prosecute. At some point after the
D.A. rejected the case, it purged the file and destroyed the videotaped statements of
the three alleged victims. The investigating officer was killed in Afghanistan in
2010.
Sometime in 2007, Petitioner moved to Laverne, Arizona, where he lived
with his girlfriend. In January 2013, a federal task force began investigating Black
Mob and Skanless. On December 19, 2013, the government obtained a
single-count, RICO conspiracy indictment against 24 defendants associated with
the “Black Mob / Skanless criminal enterprise.” During the 12-years that went by
between the March 2001 Los Angeles incident and the December 2013 RICO
indictment, Petitioner had neither been arrested nor charged with a single felony
crime. Nor did the indictment allege any substantive felony conduct against him
(apart from the 2000 and 2001 pimping incidents identified above and a drug sale
from March 2000).

4

The government raided Petitioner’s Laverne, Arizona residence and arrested
him on January 7, 2014.2 On November 20, 2014, the government obtained a
superseding indictment. That indictment, just like the first one, failed to allege any
substantive criminal conduct against Petitioner after the March 2001 Los Angeles
incident. It nonetheless tacked on four substantive counts of sex trafficking, one
based exclusively on the August 2000 Las Vegas incident (Count 2) and three
based exclusively on the March 2001 Los Angeles incident (Counts 3-5).
On January 16, 2015, Petitioner moved to dismiss for prejudicial
preindictment delay. On April 14, 2016, the district court granted that motion in
part, entering a written order dismissing Counts 3-5. On April 18, 2016, the
government filed a motion for reconsideration, which the court granted on May 24,
2016.
Trial for Petitioner and codefendant-appellant Robert Banks began on June
27, 2016. On July 13, 2016, the jury returned guilty verdicts as to all counts. On
December 21, 2016, the district court imposed a 66-month sentence. On January
15, 2020, the three-judge panel affirmed Petitioner’s convictions and sentences. On
April 7, 2020, the Ninth Circuit denied his petition for rehearing en banc.
2

The district court suppressed the evidence from that search based on
the warrant being so stale that no reasonable officer could have executed it in good
faith.
5

Reasons for Granting the Petition
I.
Petitioner was prosecuted in federal court 13 years after the same matters
were adjudicated in state court and after the destruction of the videotaped
statements of the alleged victims and the death of the investigating officer; the
Ninth Circuit has completely abdicated its responsibility to “apply[] the
settled principles of due process . . . to individual cases.”
A.

Introduction
This case is yet another example of the “new ‘age of cooperative

federalism,’ [in which] the Federal and State Governments are waging a United
Front . . . [and] join together to take a second bite at the apple.” Gamble v. United
States, 139 S. Ct. 1960, 1994 (2019) (Ginsberg, J. dissenting) (quotations and
citations omitted).
To be perfectly clear, the substantive offenses at issue here were adjudicated
in state court in 2000 and 2001.3 Thirteen years later, a federal task force began
investigating a handful of pimps who identified with the same “dance clique” as
Petitioner. The detectives and agents dusted off some old case files and –

3

Petitioner was prosecuted again in federal court in this case for an
incident in 2000 that resulted in a conviction for pimping in the State of Nevada
and for an arrest for pimping in Los Angeles in 2001. The Los Angeles D.A.
dismissed the 2001 case, citing “insufficient evidence.” Petitioner had no defense
to the new federal charges stemming from the 2000 incident because the
government introduced his conviction documents from Nevada against him at trial.
6

notwithstanding the fact that the videotaped statements of the alleged victims had
been destroyed and the case agent was deceased – prosecuted Petitioner for the
same thing, all over again.
In Gamble, this Court held that such prosecutions do not offend the doublejeopardy clause. This prosecution, however, offended Petitioner’s right to due
process, as articulated by this Court in United States v. Lovasco, which delegated
to lower courts “the task of applying the settled principles of due process . . . to the
particular circumstances of individual cases.” 431 U.S. 783, 787 (1977). By
affirming Petitioner’s convictions in a memorandum, the Ninth Circuit has made it
quite clear that it does not take that responsibility seriously.
B.

The length of the delay was extraordinary, Petitioner established nonspeculative prejudice from it, and the government had no justification for it;
the Ninth Circuit’s willful blindness warrants review.
Under the standard set forth by this Court in Lovasco, Petitioner was

required to establish: 1) actual prejudice from the delay; and 2) that the delay
offends “those fundamental conceptions of justice which lie at the base of our civil
and political institutions.” 431 U.S. at 789-90.
The actual prejudice here was quite obvious: during the 13-year delay
between the alleged offense and the indictment, the contemporaneous, videotaped
statements of the alleged victims had been destroyed and the detective who wrote
7

all the reports had been killed. Petitioner was therefore deprived of verbatim
witness statements, which would otherwise have been discoverable under the
Jencks Act and – because they invariably contained impeachment material – the
Fifth Amendment.
The government accordingly enjoyed a significant windfall from the delay.
Petitioner could not impeach the victim-witnesses with their videotaped statements
because they had been destroyed. Nor could Petitioner impeach the victimwitnesses with contrary facts in the investigating officer’s report, because that
would require calling the officer to the witness stand and he was dead. Finally,
Petitioner could not impeach the other officer because he had not written any
reports or made any prior statements.
Separately, the fact that the Los Angeles District Attorney declined the case
for insufficient evidence demonstrates that the videotapes were exculpatory.
It should go without saying that the prosecution of child-sex crimes is a high
priority for any prosecutorial agency. And without the videotapes, this case
was not difficult to prove. It stands to reason then, that there was something on
those tapes that resulted in the D.A. deciding not to bring charges. That is not
speculation – it is common sense.
The Ninth Circuit nonetheless adopted wholesale the government’s viciously
8

circular argument that Petitioner could not show prejudice from the destruction of
the tapes without first reviewing the tapes that no longer exist. Again, basic
common sense tells us otherwise. There was a 15-year delay between the incident
and the trial. There is no way that the victim-witnesses could have testified
consistently with their statements from 15 years earlier, which the government
conceded in its briefs. Moreover, by requiring a defendant to identify precisely the
contents of recordings that have been destroyed and that he never had access to in
the first place in order to obtain relief, the Ninth Circuit has rendered the “actual
prejudice” prong of this inquiry a Catch-22.4
With respect to the second prong of the test – that the delay “offends those
fundamental conceptions of justice which lie at the base of our civil and political
institutions” – the extraordinary delay in this case is sui generis. Indeed, the “long”
delay this Court considered in Lovasco was only 18 months, see id. at 786, while

4

“There was only one catch and that was Catch-22, which specified
that a concern for one’s safety in the face of dangers that were real and immediate
was the process of a rational mind. Orr was crazy and could be grounded. All he
had to do was ask; and as soon as he did, he would no longer be crazy and would
have to fly more missions. Orr would be crazy to fly more missions and sane if he
didn’t, but if he were sane he had to fly them. If he flew them he was crazy and
didn’t have to; but if he didn’t want to he was sane and had to. Yossarian was
moved very deeply by the absolute simplicity of this clause of Catch-22 and let out
a respectful whistle.” Joseph Heller, Catch-22 (Simon & Schuster 1961).
9

the delay this Court considered “lengthy” in United States v. Marion was only
three years. See 404 U.S. 307, 308 (1971); Lovasco, 431 U.S. at 787
(characterizing the delay in Marion as “a lengthy preindictment delay”).
The Ninth Circuit cases are all in the same ballpark. See, e.g, United States v.
Corona-Verbera, 509 F.3d 1105, 1113 (9th Cir. 2007) (less than five-year delay);
United States v. Manning, 56 F.3d 1188, 1193 (9th Cir. 1995) (seven-year delay);
United States v. Butz, 982 F.2d 1378, 1379 (9th Cir. 1993) (less than four-year
delay); United States v. Huntley, 976 F.2d 1287, 1288 (9th Cir. 1992)
(seven-month delay); United States v. Sherlock, 962 F.2d 1349, 1353 (9th Cir.
1992) (36-month delay); United States v. Mays, 549 F.2d 670, 672 (9th Cir. 1977)
(four-and-a-half-year delay).
And there was simply no justification for it, other than “we didn’t start
investigating the federal case until 2012.” But after concluding that the destruction
of the videotaped statements from the alleged victims did not constitute actual
prejudice, the Ninth Circuit panel did not even bother to address this prong of the
inquiry.5
5

There is also a circuit split as to whether a defendant is required to
prove affirmative prosecutorial misconduct or a delay taken for tactical reasons,
which a previous member of this Court has recognized. See Hoo v. United
States, 484 U.S. 1035, 1036 (1988) (White, J., dissenting from denial of petition
for writ of certiorari).
10

The simple fact of the matter is that if Petitioner is not entitled to relief on
these facts, no defendant in the Ninth Circuit will ever be able to obtain relief for
prejudicial preindictment delay. That is not what this Court held in Lovasco, where
it left “to the lower courts, in the first instance, the task of applying the settled
principles of due process . . . to the particular circumstances of individual cases.”
431 U.S. at 797. This Court should grant the petition to remind the Ninth Circuit
that Lovasco means what it says.

II.
The Ninth Circuit failed to address the retroactive application of an amended
statute of limitations in the absence of congressional intent.
The Ninth Circuit panel also ducked an important question regarding the
retroactive application of an amended statute of limitations in the absence of
congressional intent. In United States v. Richardson, the Third Circuit held that a
statute of limitations does not apply retroactively absent Congress’s clear intent to
the contrary. 512 F.2d 105 (3d Cir. 1975). And while there appears to be no
contrary authority from any other circuits, at least one district court has questioned
the viability of Richardson after this Court’s decision in Landgraf v. Usi Film
Prods., 511 U.S. 244 (1994). See United States v. Nader, 425 F. Supp. 3d 619, 630

11

(E.D. Va. 2019) (“Richardson was decided before Landgraf, and . . . appear[s] to
be inconsistent with Landgraf.”).
This issue was squarely presented to the Ninth Circuit panel. In 2000 and
2001 – when the incidents underlying the substantive sex-trafficking counts took
place – the applicable limitations period ran “until the child reaches the age of 25
years”:
No statute of limitations that would otherwise preclude prosecution
for an offense involving the sexual or physical abuse of a child under
the age of 18 years shall preclude such prosecution before the child
reaches the age of 25 years.
18 U.S.C. § 3283 (1997). If this were the applicable statute of limitations, there is
no doubt that the charges against Petitioner would have been time barred because
the superseding indictment was filed on November 20, 2014, when each of the
alleged victims was more than 25 years old.
In 2003, however, Congress extended the limitations period of § 3283 to
“the life of the child.” And in 2006, it extended the period again – to “the life of the
child or for ten years after the offense, whichever is longer.” Also in 2006,
Congress enacted 18 U.S.C. § 3299, which states that “an indictment may be found
. . . without limitation . . . for any [specified] offense.” The only question, then, is
whether the “life of the child” limitations period (found in both the 2003 and 2006

12

amendments to § 3283 or § 3299) applies retroactively.
Petitioner argued to the district court and on appeal that this question is
answered by a fundamental, longstanding principle of statutory construction: if
Congress does not clearly express its intent to have a statute apply retroactively, it
applies prospectively only. Based on that principle, in Richardson, the Third
Circuit held that a statute of limitations does not apply retroactively absent
Congress’s clear indication to the contrary. 512 F.2d at 106. And Congress gave no
such indication with respect to the 2003 or 2006 amendments to § 3283 or its 2006
enactment of § 3299.
In Richardson, the Third Circuit recognized that the issue presented did not
relate to the ex post facto clause, but instead focused on “ascertaining
congressional intent.” 512 F.2d at 106. The court began its analysis by
emphasizing that “[c]riminal statutes of limitations . . . are to be interpreted in
favor of repose.” Id. It then held that because statutory “law is presumed to operate
prospectively in the absence of a clear expression to the contrary” and there was no
such expression with respect to the 1971 amendment, the 1968 limitations period
controlled and the charge was time barred. See id.
The same analysis should apply here because Congress did not indicate that
it intended the 2003 or 2006 amendments to § 3283, or its 2006 enactment of §
13

3299, to apply retroactively. Yet the Ninth Circuit dismissed this issue in a single
sentence that in no way addressed the argument:
Because Congress evinced a clear intent to extend the statute of
limitations for these types of crimes in its amendments, and because
there is no ex post facto problem here, the prosecution was timely.
2020 U.S. App. LEXIS 1545, *7 (9th Cir. Jan. 15, 2020).
Once more, Petitioner did not dispute that Congress had “evinced a clear
intent to extend the statute of limitations” when it passed the new legislation. Nor
did Petitioner contend that the retroactive application of the statute violated the ex
post facto clause. Rather, the issue is discrete: whether a statute of limitations is to
be applied retroactively in the absence of congressional intent that it should be.
And the memorandum failed to address that argument entirely. See id.
This Court should grant the petition to address this question and to resolve
any conflict between the Third Circuit’s decision in Richardson and this Court’s
subsequent holding in Landgraf.

14

Conclusion
The Court should grant the petition for a writ of certiorari.
Respectfully submitted,
Dated: July 2, 2020

_______________________
JOHN C. LEMON
1350 Columbia, Suite 600
San Diego, CA 92101
Telephone: (619) 794-0423
Attorney for Petitioner

15

